Judd E. Stone II
Solicitor General

(512) 936-1700
Judd.Stone@oag.texas.gov

October 7, 2021
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: Andre Lee Thomas v. Bobby Lumpkin, Director, Texas Department of Criminal
Justice, Correctional Institutions Division, No. 21-444
Dear Mr. Harris:
Under Supreme Court Rule 30.4, Respondent Bobby Lumpkin, Director, Texas
Department of Criminal Justice, Correctional Institutions Division, respectfully
moves for an extension of the time for ﬁling his response to the petition for a writ of
certiorari in this matter.
This is a capital case. The response is currently due on October 22, 2021.
Respondent requests a 30-day extension, creating a new ﬁling date of November 22,
2021.* My ofﬁce conferred with counsel for Petitioner on October 7, and Petitioner
does not oppose the requested extension.
The extension is needed because the undersigned counsel and other counsel
assisting with this matter have numerous brieﬁng obligations, including:

* Thirty days from October 22 is November 21, which is a Sunday. Thus, the operative deadline would be November 22.
Pos t Of fic e B ox 125 48, Aus tin, Te xa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. te xa s a t tor n e yge ne r a l. gov

Scott S. Harris
October 7, 2021
Page 2
• Ramirez v. Collier, et al., No. 21-5592 in the Supreme Court of the United
States (response brief on the merits due October 15; oral argument set for
November 1);
• Cook County v. Mayorkas, No. 21-2561 in the U.S. Court of Appeals for the
Seventh Circuit (appellants’ brief due November 3);
• Grassroots Leadership, Inc., et al. v. Masters, et al., No. 19-0092 in the Supreme
Court of Texas (response brief on the merits due November 1);
• Wardrip v. Lumpkin, No. 21-5226 in the Supreme Court of the United States
(brief in opposition due October 27);
• Luna v. Lumpkin, No. 21-5460 in the Supreme Court of the United States
(brief in opposition due October 24);
• Oklahoma v. Castro-Huerta, No. 21-429, in the Supreme Court of the United
States (amicus brief due October 21);
• Texas Telephone Association, et al. v. Public Utility Commission of Texas, et al.,
No. 03-21-00294-CV (appellees’ brief due October 21);
• In re McGowan, No. 12-21-00086-CV in the Texas Court of Appeals for the
Twelfth Judicial District (oral argument set for October 19);
• Whole Woman’s Health v. Jackson, No. 21-50792, in the U.S. Court of Appeals
for the Fifth Circuit (appellants’ brief due October 13); and
• Paxton v. Abbott, No. 21-0733 in the Supreme Court of Texas (petition for
review filed October 5).
For the foregoing reasons, Respondent respectfully requests a 30-day extension
of the deadline for ﬁling a response to the petition for a writ of certiorari, creating a
new deadline of November 22, 2021.

Pos t Of fic e B ox 125 48, Aus tin, Te xa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. te xa s a t tor n e yge ne r a l. gov

Scott S. Harris
October 7, 2021
Page 3
Sincerely,
/s/ Judd E. Stone II
JUDD E. STONE II
Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Judd.Stone@oag.texas.gov
cc:

Maurie Levin (Counsel for Petitioner)

Pos t Of fic e B ox 125 48, Aus tin, Te xa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. te xa s a t tor n e yge ne r a l. gov

